July 2006
Report No. 06-015


FDIC’s Oversight of Technology
Service Providers




             AUDIT REPORT
                                                                                            Report No. 06-015
                                                                                                    July 2006

                                     FDIC’s Oversight of Technology Service Providers

                                     Results of Audit

                                     The FDIC actively supported the FFIEC through examinations of
Background and Purpose               numerous high-priority TSPs and has acted to strengthen its Information
of Audit                             Technology (IT) Risk Management Program and coverage of TSPs.
                                     However, the FDIC’s oversight process used for identifying, monitoring,
Under the Bank Service               and prioritizing TSPs for examination coverage needs improvement. The
Company Act (BSCA), the              FDIC does not have a current, accurate, and complete inventory of TSPs
FDIC and other federal financial
                                     that are used by FDIC-supervised institutions and have access to sensitive
regulators have statutory
authority to regulate and            customer information. The FDIC has taken action to address known
examine the services a               weaknesses related to the TSP inventory, but additional attention is
technology service provider          needed, particularly for TSPs that process sensitive customer
(TSP) performs for FDIC-             information. Additionally, our evaluation of TSP data in ViSION found
insured financial institutions.      that the Division of Supervision and Consumer Protection (DSC) had not
                                     implemented adequate controls to obtain and maintain TSP data. As a
According to the Federal
                                     result, the FDIC’s ability to identify and monitor TSPs; assess risk,
Financial Institutions
Examination Council (FFIEC)          including risk related to sensitive customer information; and prioritize
Outsourcing Technology               use of examination resources for financial institutions and TSPs is
Services Handbook, TSP               limited.
relationships should be subject
to the same risk management,         Also, the FDIC could improve its participation in the TSP risk-based
security, privacy, and other         supervisory process used by the federal banking agencies. The FDIC was
internal controls and policies       not always obtaining and completing Examination Priority Ranking Sheet
that would be expected if the        (EPRS) information, which is used in scheduling and prioritizing TSP
financial institution were
conducting the activities
                                     examinations in accordance with FFIEC guidance. In addition, FFIEC
directly.                            guidance on ranking TSPs as part of the EPRS process did not address
                                     consideration of the TSPs’ processing of sensitive customer information.
The overall objective for our        As a result, FFIEC decisions and FDIC input into those decisions on the
series of audits of the FDIC’s       risks posed by TSPs and the frequency and extent of TSP examinations
oversight of TSPs is to assess the   could lack sufficient support.
FDIC’s examination coverage of
TSPs and related efforts to          Recommendations and Management Response
protect sensitive customer
information. For this audit, we
                                     The report makes six recommendations to help the FDIC: (1) better
assessed the FDIC’s oversight
process for identifying and          identify and monitor TSPs with access to sensitive customer information
monitoring TSPs used by FDIC-        and (2) improve the process the FDIC uses (in conjunction with the other
supervised institutions and for      FFIEC agencies) for assessing the risks posed by, and prioritizing for
prioritizing examination             examination, those TSPs with access to sensitive customer information.
coverage of TSPs. We also
reviewed the extent to which         FDIC management generally agreed with our recommendations. The
TSP information was being
                                     FDIC will take steps to improve its TSP inventory and sharing of TSP
captured in the FDIC’s Virtual
Supervisory Information On the       information with the other federal banking agencies, enhance controls
Net system (ViSION).                 over BSCA notifications, increase data reliability, and work with the
                                     FFIEC IT Subcommittee regarding including in the new risk-based
_______________________              examination priority ranking program those TSPs processing sensitive
To view the full report, go to
www.fdicig.gov/2006reports.asp       customer information.
                             TABLE OF CONTENTS


BACKGROUND                                                 1

RESULTS OF AUDIT                                           4

FINDINGS AND RECOMMENDATIONS                               5

FINDING A: Inventory of TSPs                              5
  BSCA Institution Guidance                               5
  BSCA-Related Examination Guidance and Data Validation   6
  Obtaining and Maintaining IT Examination Data on TSPs   6
  Recommendations                                         9

FINDING B: Obtaining and Completing EPRS Information      10
  The EPRS Process                                        10
  Obtaining and Completing EPRS Information               11
  FDIC Guidance on the EPRS Process                       12
  Recommendations                                         12

CORPORATION COMMENTS AND OIG EVALUATION                   13

APPENDIX I:     OBJECTIVE, SCOPE, AND METHODOLOGY         14

APPENDIX II:    LAWS, REGULATIONS, AND GUIDANCE           16
                PERTAINING TO DATA SECURITY AT FDIC-
                INSURED INSTITUTIONS AND RELATED
                PRIVACY REQUIREMENTS

APPENDIX III:   SUMMARY OF FINANCIAL INSTITUTION          20
                AND TSP-RELATED DATA SECURITY
                BREACHES REPORTED IN 2005

APPENDIX IV:    CORPORATION COMMENTS                      21

APPENDIX V:     MANAGEMENT RESPONSE TO                    29
                RECOMMENDATIONS
Federal Deposit Insurance Corporation                                                                      Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                       Office of Inspector General



DATE:                                     July 20, 2006

MEMORANDUM TO:                            Sandra L. Thompson, Acting Director
                                          Division of Supervision and Consumer Protection



FROM:                                     Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Oversight of Technology Service Providers
                                          (Report No. 06-015)


This report presents the results of the first in a series of audits of the FDIC’s oversight of
technology service providers (TSP).1 We initiated this audit in response to reported data security
breaches in 2005 involving sensitive customer information2 maintained by financial institutions
and, in some cases, TSPs (see Appendix III). The overall objective for our series of audits on
TSPs is to assess the FDIC’s examination coverage of TSPs and related efforts to protect
sensitive customer information. For this audit, we assessed the FDIC’s oversight process for
identifying and monitoring TSPs used by FDIC-supervised institutions and for prioritizing
examination coverage. Appendix I of this report details our objective, scope, and methodology.

BACKGROUND

Under the Bank Service Company Act (BSCA),3 the FDIC and other federal financial regulators
have statutory authority to regulate and examine the services performed by third parties, such as
TSPs for FDIC-insured financial institutions. The FDIC’s Division of Supervision and
Consumer Protection (DSC) has designated two categories of information technology (IT)
examinations for providing examination coverage of TSPs. For TSPs that are owned or
controlled by, or otherwise affiliated with, an FDIC-supervised financial institution, examination
coverage is provided through DSC’s IT examination of the institution. The IT examination is
generally conducted in coordination with safety and soundness examinations. For examinations


1
  According to Interagency Guidelines Establishing Information Security Standards (Appendix B to Part 364 of the
FDIC Rules and Regulations), service provider—“means any person or entity that maintains, processes, or otherwise
is permitted access to customer information through its provision of services directly to the bank.”
2
  Sensitive customer information is defined by Appendix B to Part 364 of the FDIC Rules and Regulations as a
customer’s social security number, personal identification number, password, or account number, in conjunction
with a personal identifier such as the customer’s name, address, or telephone number. Such information would also
include any combination of components of customer information that would allow someone to log onto or access
another person’s account, such as a user name and password.
3
  Codified to 12 U.S.C. 1867. Section 7(c) of the BSCA requires FDIC-insured financial institutions to notify the
appropriate federal regulator of the existence of a third-party relationship within 30 days after contracting with, or
the performance of the service by, the third party, whichever occurs first.
of TSPs designated as Independent Data Centers (IDCs),4 DSC policy directs the use of guidance
issued by the FDIC and the other federal banking agencies that are members of the Federal
Financial Institutions Examination Council (FFIEC).5 This guidance, which describes a risk-
based supervisory approach for IT examinations of TSPs, prioritizes the IDCs based on risk, with
the FFIEC considering those TSPs rated a higher risk for separate IT examinations (discussed
below). The relationships with lower-risk TSPs can receive examination coverage through the
review of the financial institution’s vendor management program. We did not assess
examination coverage of vendor management as part of this audit, but we are currently
conducting an audit of that examination function.

The FFIEC IT examination handbook entitled, Supervision of Technology Service Providers
(TSP Handbook), identifies four work products related to separate IT examinations of TSPs.

    •    TSP Examination - The FFIEC agencies examine the higher-risk IDCs, as defined
         earlier, to identify existing or potential risks that could adversely affect serviced financial
         institutions. As of March 31, 2005 (the latest data available), there were approximately
         130 of these TSPs subject to periodic examination, and the FDIC was the Agency-in-
         Charge (AIC) for 88 of those TSPs.

    •    Multi-Regional Data Processing Servicer (MDPS) Examination - A TSP is considered
         for the MDPS program if it processes mission-critical applications, such as general ledger
         or loan and deposit systems, for a large number of financial institutions with multiple
         regulators or geographically dispersed data centers. For example, some MDPSs process
         mission-critical applications for more than 1,000 financial institutions. FFIEC guidance
         requires examinations of MDPSs every 2 years or less, depending on the level of
         supervisory concern, because these entities pose a systemic risk to the banking system
         should one or more have operational problems or fail. Prior to September 30th of each
         year, the FFIEC Information Technology Subcommittee6 of the Task Force on
         Supervision determines a schedule of MDPS examinations, which are performed jointly
         by the agencies. As of March 31, 2005, 17 TSPs were in the MDPS program.

    •    Shared Application Software Review (SASR) - A SASR is an interagency review of
         software programs or systems used by numerous financial institutions. SASRs help to
         reduce the time and resources needed to examine software and systems at individual
         institutions.

    •    Follow-Up Review - The purpose of this review is to: maintain communications with
         TSPs between on-site examinations; identify significant changes in management,
         products, services, or risk management practices affecting financial institutions; follow




4
  IDCs are defined by the FDIC as TSPs that are not owned or controlled by, or otherwise affiliated with, a financial
institution.
5
  In addition to the FDIC, the FFIEC includes the Federal Reserve Board, National Credit Union Administration,
Office of the Comptroller of the Currency (OCC), and Office of Thrift Supervision (OTS).
6
  Representative IT examiners from the five FFIEC member agencies comprise this subcommittee.

                                                      2
        up on issues or concerns previously identified; and confirm business-line or service
        provider risk designations and their examination priority in order to update supervisory
        strategies.

The FFIEC has stated that the use of a TSP does not diminish the responsibility of the financial
institution’s board of directors and management to ensure that the activities performed by the
TSP are conducted in a safe and sound manner and in compliance with applicable laws and
regulations. According to the FFIEC Outsourcing Technology Services Handbook (Outsourcing
Handbook), TSP relationships should be subject to the same risk management, security, privacy,
and other internal controls and policies that would be expected if the financial institution were
conducting the activities directly. According to the Outsourcing Handbook, written contracts are
required for all outsourced servicing arrangements, including those with financial institution
affiliates.

Section 501 of the Gramm-Leach-Bliley Act (GLBA)7 requires the federal banking agencies to
establish appropriate standards for financial institutions subject to their supervision in order to
protect the security and confidentiality of customer information. The Act generally prohibits any
financial institution from disclosing information to nonaffiliated third parties without notice to,
and an opportunity for, the customer to opt out. The Act also provides an exception for
nonaffiliated third parties, such as TSPs, that perform services for or functions on behalf of the
financial institution. In response to the GLBA, the federal banking agencies issued Interagency
Guidelines Establishing Information Security Standards, found at Appendix B of Part 364 of the
FDIC Rules and Regulations. These guidelines require a financial institution to have a
comprehensive information security program that includes safeguards appropriate to the size and
complexity of the institution and nature and scope of its activities. Under these guidelines, banks
must (1) require their TSPs, by contract, to implement appropriate measures to meet the
objectives of the guidelines related to protecting against unauthorized access to or use of
sensitive customer information and (2) monitor contract compliance by the TSPs, where
warranted, according to the institution’s assessment of risk.

The FFIEC’s TSP Handbook identifies the risks associated with maintaining the confidentiality
and integrity of information. For example, the TSP Handbook discusses the reputational risk
associated with errors, delays, or omissions in information technology that become public
knowledge or directly affect customers and the compliance risk associated with the unauthorized
disclosure of customer information that could expose institutions to civil money penalties or
litigation. To capture information on these and other risks, the TSP Handbook recommends the
use of an Examination Priority Ranking Sheet (EPRS) for those TSPs subject to separate IT
examinations. The FFIEC agencies use this information to determine supervisory priorities
based on the TSP's business line risks, client base, and adequacy of internal control and risk
management practices.

DSC uses the Virtual Supervisory Information On the Net (ViSION) system to provide
automated support for many aspects of bank supervision, including application tracking, case
management, safety and soundness examination, information technology examination, offsite

7
  See Appendix II for a summary of laws, regulations, and guidance pertaining to data security at FDIC-insured
institutions and related privacy requirements.

                                                     3
monitoring, large bank analysis, management reporting, workload management and processing,
and security. ViSION is used to capture information on examinations of financial institutions
and their TSPs, including technology profiles and related risk data.

RESULTS OF AUDIT

The FDIC actively supported the FFIEC through examinations of numerous high-priority TSPs
and has acted to strengthen its IT Risk Management Program and coverage of TSPs. However,
the FDIC’s oversight process for identifying and monitoring TSPs used by FDIC-supervised
institutions and prioritizing TSP examination coverage needs improvement.

The FDIC does not have a current, accurate, and complete inventory of TSPs that are used by
FDIC-supervised institutions and have access to sensitive customer information. The FDIC has
taken action to address known weaknesses related to the TSP inventory, but additional attention
is needed, particularly for TSPs that process sensitive customer information. Additionally, our
evaluation of TSP data in ViSION found that DSC had not implemented adequate controls to
obtain and maintain TSP data. As a result, the FDIC’s ability to identify and monitor TSPs;
assess risk, including risk related to sensitive customer information; and prioritize use of
examination resources for financial institutions and TSPs is limited (Finding A).

The FDIC also could improve its participation in the TSP risk-based supervisory process used by
the federal banking agencies. The FDIC was not always obtaining and completing EPRS
information used in scheduling and prioritizing TSP examinations in accordance with FFIEC
guidance. In addition, FFIEC guidance on ranking TSPs as part of the EPRS process did not
address consideration of the TSPs’ processing of sensitive customer information. As a result,
FFIEC decisions and FDIC input into those decisions on the risks posed by TSPs and the
frequency and extent of TSP examinations could lack sufficient support (Finding B).




                                            4
FINDINGS AND RECOMMENDATIONS

Finding A: Inventory of TSPs

DSC does not have a current, accurate, and complete inventory of TSPs that are used by FDIC-
supervised institutions and have access to sensitive customer information. Instead, the inventory
is largely limited to those TSPs that are subject to separate examinations under FFIEC
guidelines. In addition, TSP-related data, including data related to TSP processing of sensitive
customer information, needed to perform thorough risk assessments and make fully informed
decisions on examination priorities is not readily available for use in support of the TSP
examination process. The primary causes of this condition are (1) outdated guidance to
institutions on BSCA compliance, (2) no formal requirement for examiners to assess the
adequacy of institution compliance with BSCA notification requirements, and (3) weaknesses in
controls for obtaining and maintaining TSP data in the ViSION system from both BSCA
notifications and IT examinations. As a result, the FDIC’s ability to identify and monitor TSPs;
assess risk, including as it relates to sensitive customer information; and prioritize use of
examination resources for financial institutions and TSPs is limited.

BSCA Institution Guidance. The FDIC has not established adequate internal controls to ensure
that information on all TSP relationships is obtained. Specifically, in June 1999, the FDIC
issued a Financial Institution Letter (FIL-49-99, Required Notification for Compliance with the
Bank Service Company Act) reminding institutions of applicable BSCA notification
requirements. The FIL further noted that some institutions were neglecting to file the required
BSCA notices. The FIL contained an optional notification form that could be used by
institutions in reporting covered contracts and relationships. The FIL used language from the
BSCA to identify the types of services covered by the Act, but offered little clarification as to
how that language should be interpreted and applied to contracts and other relationships for more
recently implemented technology-related services. No other FILs addressing BSCA compliance
have been issued to institutions since 1999, despite advances in technology-related services and
increased use of TSPs by institutions. The BSCA was enacted on October 23, 1962, and the
definition of services in Section 3 of the Act predates certain activities currently performed by
TSPs, such as those related to Internet banking. As discussed below, inconsistent reporting of
TSP relationships could result from varying interpretations of the BSCA notification
requirement. Also, there is no requirement in the FIL or under the BSCA for a bank to notify the
FDIC when a third-party service relationship is terminated. However, additional guidance to
banks, including a requirement to notify the FDIC when a TSP relationship is terminated, would
help provide necessary control for routine or consistent BSCA notifications to the FDIC that
would support maintenance of a current, accurate, and complete TSP inventory.

Further, there are indications that financial institutions may be continuing to enter into BSCA-
covered relationships with TSPs without providing required notices to the FDIC. For example,
one TSP we identified performed credit card processing for five institutions supervised by the
FDIC. In accordance with the BSCA, these five institutions should have filed BSCA
notifications with the FDIC, describing, among other things, the services performed by the TSP.
However, DSC could not locate copies of the BSCA notifications for four of the five institutions.
According to DSC officials in San Francisco, some confusion exists among banks regarding the
scope and applicability of the BSCA, and banks are not always notifying the FDIC of their third-

                                             5
party service relationships. Based on our interviews with DSC officials, no additional
information pertaining to the BSCA notifications has been issued to banks since the 1999 FIL.

While updating and reissuing the 1999 FIL would help in addressing the concerns noted in this
report, the FDIC should consider regulatory and other options, together with the other federal
banking agencies, in order to ensure that BSCA notifications and the TSP inventory are current,
accurate, and complete. In addition to providing notification of new contracts or service
agreements with TSPs, such options could include uniform reporting on all TSP relationships
using standard data elements for BSCA notifications, processing of sensitive customer
information, information on third-party reviews and other oversight of TSPs,8 publicly available
information such as financial statements of the TSP,9 and identification and notification of
terminated TSP relationships.

BSCA-Related Examination Guidance and Data Validation. Current guidance issued to DSC
examiners on assessing the adequacy of institution compliance with BSCA notification
requirements is insufficient. Under DSC’s former Information Technology General Work
Program, issued in April 2004, examiners were required to determine whether the financial
institution had filed notifications on TSP relationships with the appropriate regulator, as required
by the BSCA, for services outsourced since the previous examination. However, this guidance
was superseded in August 2005 by IT examination guidance on the FDIC’s Information
Technology – Risk Management Program (IT-RMP). This IT examination guidance does not
require examiners to determine a bank’s compliance with the BSCA notification requirements.
Also, the current guidance does not require examiners to validate TSP information in the
ViSION IT Examination Module, which serves as the TSP inventory and tracking system. Such
validation should include use of both the BSCA notifications and IT examination information
related to TSPs, as discussed below. Examination coverage of compliance with BSCA
notification requirements and validation of the TSP data maintained by DSC in ViSION are
critical to ensuring that the FDIC has a current, accurate, and complete TSP inventory; TSP data
are reliable; and all TSP relationships are properly considered in the supervisory process.

Obtaining and Maintaining IT Examination Data on TSPs. Our evaluation of TSP data in
ViSION found that DSC had not implemented adequate controls to obtain and maintain TSP
data. Specifically, we found numerous problems with the integrity of data relating to TSPs,
including duplication, incomplete data fields, and listings of TSP relationships that are no longer
active. Further, we noted that ViSION’s ability to perform information queries is limited. For
example, ViSION does not have the capability of listing banks serviced by a particular TSP or all
the TSPs that are providing services to a particular financial institution. These issues reduce the
usefulness of ViSION as a management tool for identifying and monitoring potential risks
presented by TSPs and for prioritizing examination coverage.


8
  Part 364 of the FDIC Rules and Regulations discusses financial institution oversight of service provider
relationships, including monitoring audits and other reviews of TSPs. This oversight is intended to help ensure that
institutions and their service providers are meeting the Interagency Guidelines Establishing Information Security
Standards, which require an appropriate information security program to be in place to protect customer
information.
9
  In an article in the (summer 2005) FDIC Supervisory Insights, the FDIC noted the benefits of the review and
analysis of public information in developing the Corporation’s supervisory response to potential risks at TSPs.

                                                      6
As part of the IT examination process established in IT-RMP, examiners are required to
complete a Technology Profile Script (Profile Script) on each financial institution and to obtain
from the institution an Officer’s Questionnaire to help identify risks posed by the institution’s IT
program, including risks posed by TSPs. The Profile Script is designed to be a basic
measurement of the complexity and potential risk of the technology deployed at a financial
institution. The Profile Script is not designed to identify all TSPs used by the institution.
Because of the focus on institution risk, the Profile Script requires only limited information, such
as the TSP name, for those TSPs processing core banking applications and providing Web site
hosting and transactional E-Banking. TSPs used by institutions to perform other functions, such
as credit card and mortgage processing, are not addressed in the Profile Script. Additionally, the
Profile Script does not assign a priority to TSPs that process sensitive customer information or
otherwise require collection of this data. As a result, the Profile Script is not a source of
complete information on TSPs providing services to a particular financial institution or
processing sensitive customer information. According to DSC officials, the primary focus of the
Profile Script is to determine the level of expertise needed to examine the institution. We also
noted that the Officer’s Questionnaire requests information about the institution’s IT program
with a focus on information security but does not request information on all TSPs servicing the
institution or on TSPs that process sensitive customer information.

After completing an IT examination of a financial institution, examiners are required to complete
an IT ViSION database for each type of system or platform10 maintained by or for the financial
institution. An IT template is the source of TSP data for ViSION. However, the template does
not provide for capturing information on all TSPs, only those considered a higher risk by the
examiner-in-charge of the examination. As a result, ViSION contains limited information to
help the FDIC assess the risks related to the security of sensitive customer information at TSPs.

We performed an initial query of TSP information in ViSION and found over 10,000 records,
many of which were duplicate records or contained outdated information. DSC informed us that
the information was not accurate and provided us with a revised database reflecting
approximately 800 TSP records. DSC officials informed us that when the conversion from the
legacy system11 to ViSION occurred in 2005, some of the TSP information was lost and errors
were introduced. According to DSC officials, it will take some time to ensure that the ViSION
database contains all the appropriate technology profiles of financial institutions and TSPs.
ViSION is the primary source for completing the Profile Script used in pre-examination
planning. Therefore, the completeness and reliability of the data is critical to upcoming
examinations that can include TSP coverage.

We also found that ViSION has limited reporting capabilities for TSPs. Although reports of
TSPs can be retrieved, queries of this information are limited. For example, due to a system
glitch and incomplete data, queries cannot be performed on a specific TSP and the services it




10
   A “platform” describes some sort of framework, either in hardware or software, that allows software to run.
Typical platforms include a computer's architecture, operating system, or programming languages and their runtime
libraries.
11
   The Banking Information Tracking System was previously used by DSC to track financial institution information.

                                                    7
provides to financial institutions. Therefore, DSC did not use ViSION to monitor or prioritize
TSPs for examination coverage. Further, DSC information received through BSCA notifications
was not entered into ViSION.

Finally, DSC is maintaining a separate tracking system for BSCA notifications. As previously
stated, the information from these notifications is not being entered into ViSION. Rather, since
November 2004, DSC has required regional offices to send BSCA notices submitted by
institutions to the DSC Technology Supervision Branch in Washington, D.C., where the
information is entered into a separate “stand-alone” database that is not linked directly to
ViSION. DSC implemented this procedure to have a centralized system for tracking BSCA
notifications. As of December 2005, the Washington, D.C., database included information on
BSCA notifications from about 400 of the more than 5,000 financial institutions that the FDIC
supervises. At present, DSC does not use this information as part of the examination process to
determine the risks posed by individual TSPs to financial institutions. The justification for
maintaining two separate systems to track TSP data is not clear, especially given that the BSCA
database is not used for supervisory purposes. In our opinion, the oversight process for TSPs
requires the integration of information received through BSCA notifications and as a result of
examinations rather than the maintenance of separate systems that are not reliable or fully
utilized.

DSC has the responsibility for ensuring the reliability of data in ViSION and its other
information systems. FDIC Circular 1301.3, Data Stewardship Program, establishes the
objectives of that program, including ensuring the usefulness, accuracy, timeliness, and
accessibility of corporate data. The circular indicates that the FDIC’s divisions and offices shall
ensure that data stewardship responsibilities are fulfilled, including those related to the reliability
of data. For DSC, this responsibility should include maintaining a current, accurate, and
complete inventory of TSPs used by financial institutions and related information in order to
successfully manage both safety and soundness risk and ensure the protection of sensitive
customer information. For example, some of the key risk factors in determining risk associated
with a TSP are the size of its client base, aggregate assets affected, and transaction volume.
Without an accurate system to identify and monitor TSPs, including information on how many
institutions a particular TSP services and which TSPs process sensitive customer information,
the risk assessment process that identifies TSPs for examination is limited.




                                               8
RECOMMENDATIONS

We recommend that the Director, DSC:

   (1) Assess, in conjunction with the other federal banking agencies, regulatory and other
       options for establishing and maintaining a current, accurate, and complete inventory of
       TSP information through the use of BSCA notifications, examination results, and other
       available data. Consideration should be given specifically to the content of BSCA
       notifications, the initiation and termination of TSP relationships, third-party reviews and
       other oversight of TSPs, and the processing of sensitive customer information.

   (2) Revise IT examination guidance to address coverage of financial institution compliance
       with BSCA notification requirements.

   (3) Establish policy and procedures for updating ViSION with information from BSCA
       notifications and the results of IT examinations, and discontinue use of a separate
       database for tracking these notifications.

   (4) Establish controls as part of DSC’s implementation of the FDIC Data Stewardship
       Program to ensure the reliability and usefulness of TSP data in ViSION. Consideration
       should specifically be given to:

      •   Modifying the Profile Script, Officer’s Questionnaire, and IT ViSION Template to
          identify all TSPs used by a financial institution and the relevant risk factors, including
          those that process sensitive customer information.

      •   Validating, as part of the supervisory process, TSP information in the ViSION IT
          Examination Module.

      •   Enhancing the ViSION report retrieval process to allow for the retrieval of
          information by TSP, to include data on all financial institutions serviced, as well as by
          institution, to include all TSPs used.




                                             9
Finding B: Obtaining and Completing EPRS Information

The FDIC’s participation in the risk-based supervisory process of TSPs used by the federal
banking agencies could be improved. The FDIC was not always obtaining and completing EPRS
information used in scheduling and prioritizing TSP examinations in accordance with FFIEC
guidance. In addition, FDIC guidance does not address the agencies’ consideration of the TSPs’
processing of sensitive customer information when ranking TSPs as part of the EPRS process.
As a result, FFIEC decisions and FDIC input into those decisions on the risks posed by TSPs and
the frequency and extent of TSP examinations could lack sufficient support.

The EPRS Process. To assist in scheduling and prioritizing TSP examinations, the FFIEC
agencies use EPRSs. The EPRS assigns various supervisory priorities to TSPs based on the
relative risk of their business lines, client base, and overall controls and risk management
oversight. TSPs determined to be higher risk are subject to more frequent and extensive
examinations and reviews. The AIC, as designated by the FFIEC, is responsible for coordinating
the risk ranking of each TSP under its supervision. The TSP Handbook requires that at the
conclusion of each TSP examination, the AIC is responsible, in part, for completing applicable
sections of the EPRS for each TSP and then distributing the form for review and comment by
other agencies. The risk-ranking factors are analyzed and discussed by the federal banking
agencies comprising the FFIEC to determine future examination priority. The EPRS provides a
framework for grouping TSPs into various supervisory priorities, based on the relative risk of
their business lines, client base, and their overall controls and risk management.

The TSP Handbook provides for an interagency review process that distributes sections of the
completed EPRSs and allows for agency agreement or disagreement to be communicated and
documented. In particular, the TSP Handbook states that the AIC is responsible for the
following:

   •   Distributing copies of the completed sections of the EPRS to the other FFIEC agencies.
   •   Collecting agency agreements/disagreements and resolving any priority disagreements to
       the extent possible.
   •   Retaining all documentation supporting the priority designation and agency
       agreement/disagreement.
   •   Documenting the basis for the disagreement in the comment section of the EPRS when a
       resolution cannot be reached.

Further, the TSP Handbook states that agency representatives receiving an EPRS from the AIC
are responsible for:

   •   Reviewing the completed sections of the EPRS.
   •   Completing the Agency Agreement on Examination Priority section and providing
       necessary comments, as applicable.
   •   Returning the completed form to the AIC by the requested response date.
   •   Retaining a copy for their records.




                                            10
Obtaining and Completing EPRS Information. We reviewed the San Francisco Regional
Office’s (SFRO) Service Provider Profile Manual, which contains information on 28 TSPs.12
Our review showed the following:

     •   The EPRSs were not completed as required at the conclusion of each TSP examination.
         The EPRSs showing FDIC as the designated AIC had not been updated or reanalyzed
         since July 2002, despite subsequent TSP examinations. The EPRSs for which the FDIC
         was not the AIC were not always dated, which raised questions about current
         applicability.

     •   EPRSs were not always obtained from other regulatory agencies. In three out of six
         instances for which the FDIC was not the AIC, an EPRS was not obtained from the other
         regulatory agency. The only documentation retained, in two of these cases, was the
         SFRO’s own data and analysis.

     •   For those TSPs for which the FDIC was not the AIC, the FDIC’s concurrence was not
         always annotated within the EPRSs, and no supporting documentation was maintained
         justifying the FDIC’s position or signifying that the FDIC had communicated its position
         to the AIC.

Also, supporting documentation was not being maintained to signify interagency agreement or
disagreement and decisions on key sections of the EPRSs. For those TSPs for which the FDIC
was the AIC, interagency concurrence was annotated in the EPRSs. However, no supporting
documentation (such as a letter, e-mail, or meeting minutes) was maintained that signified
interagency concurrence.

We noted that supervisory personnel are not required to identify the analytical basis used for
completing the EPRS, such as results from an off-site analysis, other reviews, or a TSP
examination. We noted that in those areas where documentation guidelines exist, FDIC
personnel are not sufficiently documenting and/or supporting interagency concurrence. The
EPPRs we reviewed did not note the source of the data used and analyzed, and oftentimes did not
note the date that the EPRS had been completed. Although some EPRSs did not indicate that a
supervisory review had occurred, regional office officials typically annotated when a supervisory
review had been completed for those TSPs for which the FDIC was the AIC.

Examiners manually complete EPRSs and maintain them in various file folders at the regional
offices. This manual process does not facilitate the sharing of information within the FDIC or
with the other federal banking agencies, data monitoring and analysis, or timely updates. An
automated EPRS process would be beneficial for updating EPRSs and for facilitating the
regional office review and coordination processes with other federal banking agencies. A


12
  Of these 28 TSPs, 19 were listed in the SFRO TSP examination plan for 2004-2005. The FDIC was the AIC for 7
of the 19 TSPs, another agency was the AIC for 6 TSPs, and joint examinations were conducted on 6 TSPs
designated as MDPSs. For those seven TSPs for which the FDIC was the AIC, six TSPs (86 percent) had a
completed EPRS. For the one TSP that had an incomplete EPRS, a note attached to the form indicated that no
ranking sheet was needed. However, no further explanation was provided, even though this TSP continues to be
examined.

                                                  11
modification to automatically complete EPRSs in ViSION, which is already capturing some of
the information needed for an EPRS, may assist the FDIC in its supervision of TSPs.

FDIC Guidance on the EPRS Process. The SFRO has implemented several practices that have
enhanced its use of EPRSs and supervisory oversight for TSPs. In particular, the SFRO
compiled information sheets that documented and centralized supporting data on certain TSPs.
These sheets typically captured information on a TSP’s ownership structure, system/software
specifications, examination history, customer asset size, and a customer listing. The SFRO also
maintained a service provider profile manual, which served as a central file for all completed
EPRSs. Additionally, the SFRO performed and documented a review of those EPRSs.
Furthermore, the SFRO maintains a TSP examination planning spreadsheet to facilitate
examination tracking and scheduling. These best practices on the part of the SFRO should be
considered by the FDIC for implementation across DSC because they helped to ensure adequate
support for the EPRS process.

However, neither the SFRO nor the Atlanta Regional Office considered the processing of
sensitive customer information a significant factor in completing an EPRS. The EPRS focuses
on client base, business lines, prior examination rating, effective external oversight,
technological stability, and prior problems in deciding upon risk factors. Notwithstanding, the
FDIC can and should ensure that the risks associated with processing sensitive customer
information are factored into its recommendations to the FFIEC on the supervisory approach for
a particular TSP. The FDIC had not issued guidance as a supplement to the TSP Handbook
regarding the consideration of processing sensitive customer information as a risk factor for the
EPRS. As a result, decisions by the FFIEC and FDIC concerning the risks posed by TSPs and
the frequency and extent of TSP examinations could lack sufficient support.

RECOMMENDATIONS

We recommend that the Director, DSC:

   (5) Issue supplemental guidance to the TSP Handbook on the completion and sharing of
       EPRSs among the federal banking agencies and the consideration of the TSPs’
       processing of sensitive customer information in assigning risk factors to the TSPs.

   (6) Assess the merits of implementing an automated process, including the use of ViSION,
       for collecting, storing, monitoring, and sharing EPRSs and other TSP-related information
       with the other federal banking agencies comprising the FFIEC.




                                             12
CORPORATION COMMENTS AND OIG EVALUATION

On July 19, 2006, the Acting Director, DSC, provided a written response to a draft of this report.
DSC’s response is presented in its entirety as Appendix IV to this report. The Acting Director
indicated that the FDIC has long recognized that the protection of sensitive customer information by
either financial institutions or service providers is a significant consumer protection and safety and
soundness risk area.

In its response, DSC generally agreed with the recommendations, noting that it had already
implemented or considered many of the recommendations and will work with the FDIC’s
interagency partners to enhance the FDIC supervisory programs for TSPs. Regarding the TSP
inventory, DSC agreed that the FDIC would benefit from enhancing centralized collection of TSP
data. Further, DSC will assess its options for improving the accuracy and completeness of the
inventory of TSP information and will vet the TSP inventory issues raised in this report with the
other FFIEC agencies. DSC also agreed that its IT examination procedures would include an option
for a compliance review of BSCA and has already included such a review in the IT General Work
Program. Additionally, DSC will review the IT officer’s questionnaire for appropriate inclusion of
BSCA notification requirements.

DSC indicated that the data integrity issues with ViSION were the result of an upgrade and
conversion from the prior legacy system to ViSION. During 2005, DSC implemented a data
correction process, and by the end of that year, had a high level of confidence in the database.
Nevertheless, DSC will review its TSP controls and consider opportunities for further enhancement.
DSC will propose to develop a centralized collection system to add BSCA notifications to the
ViSION architecture. DSC will also include a self-assessment item for BSCA notification
requirements in the officer’s questionnaire, evaluate and consider additional risk-ranking measures
for TSPs, and propose relevant findings to the FFIEC IT Subcommittee for consideration. DSC
noted that the current ViSION report capability allows it to report all TSPs for a given institution and
all institutions serviced by a given TSP. While we agree that the capability exists, continuing
problems with uploading customer lists (which show the number of banks serviced by a TSP) into
ViSION have limited DSC’s ability to generate accurate reports on TSPs. DSC is currently
addressing this problem through its IT Committee. In our opinion, the steps DSC is taking are
sufficient to meet the intent of our recommendation.

With respect to obtaining and completing EPRS information, DSC noted that a new risk-based
examination priority ranking program has been adopted by the FFIEC, and the TSP Handbook is
currently being rewritten to include new procedures. According to DSC, upon completion of the TSP
Handbook, supervisory decisions about TSPs will have sufficient support. Also, DSC will raise the
topic of including sensitive customer information in the risk-ranking process to the FFIEC IT
Subcommittee for discussion and consideration. Further, DSC will forward the OIG
recommendation of assessing the merits of implementing an automated process for collecting,
storing, monitoring, and sharing TSP and specific risk-related information among the federal banking
agencies to the FFIEC IT Subcommittee for discussion and consideration.

A summary of management’s response to the recommendations is in Appendix V. DSC’s planned
actions are responsive to our recommendations. Accordingly, the recommendations are resolved but
will remain open until we have determined the agreed-to corrective actions have been completed and
are effective.


                                                13
                                                                                      APPENDIX I



                       OBJECTIVE, SCOPE, AND METHODOLOGY

The overall objective for our series of audits of the FDIC’s oversight of TSPs is to assess the
FDIC’s examination coverage of TSPs and related efforts to protect sensitive customer
information. For this audit, we assessed the FDIC’s oversight process for identifying and
monitoring TSPs used by FDIC-supervised institutions and for prioritizing examination
coverage. We focused our review on the FDIC’s processes for identifying, monitoring, and
prioritizing examinations of TSPs in light of the potentially significant data security risks these
firms pose to consumers and the financial services industry. TSPs included in the MDPS
program have been identified as entities that pose a systemic risk to the banking system and are
examined periodically. Therefore, we did not review the process pertaining to the MDPS
program. In addition, we limited our review to an evaluation of the adequacy of established
policies and procedures and overall prioritization of TSPs and did not evaluate the performance
of individual TSP examinations or other examinations that include TSP coverage.

We performed our audit from August 2005 through March 2006 in accordance with generally
accepted government auditing standards. We reviewed selected TSP examinations and EPRSs
that had been completed during 2004 and 2005. Additionally, we reviewed and analyzed:

   •   the BSCA and applicable guidance issued by the FDIC;
   •   various FDIC IT Examination Procedures and applicable Regional Director’s
       Memoranda;
   •   the FFIEC’s four information technology examination handbooks entitled,
       Management, Outsourcing Technology Services, Supervision of Technology Service
       Providers, and Retail Payment Systems;
   •   IT examination data in ViSION;
   •   DSC’s Security Incident Report listings;
   •   the Multi-Regional Data Processing Servicers list;
   •   the SFRO’s Technology Service Provider Examination listing and scheduling process;
   •   the SFRO’s and Atlanta Regional Office’s EPRSs and related procedures; and
   •   information files maintained at the San Francisco and Atlanta Regional Offices.

Additionally, we interviewed DSC officials in Washington, D.C., and in the San Francisco and
Atlanta Regional Offices.

Government Performance and Results Act, Reliance on Computer-Processed Data,
Management Controls, Compliance with Laws and Regulations, and Fraud and Illegal Acts

The Government Performance and Results Act of 1993 directs federal agencies to develop a
strategic plan, align agency programs and activities with concrete missions and goals, manage
and measure results, and design budgets that reflect strategic missions. In this audit, we
reviewed the FDIC’s 2005 Annual Performance Plan and the FDIC’s Strategic Plan for 2005-
2010. These plans do not specifically address the subject of our audit.




                                              14
                                                                                   APPENDIX I



We conducted tests to determine the reliability of computer-processed data obtained from the
FDIC’s ViSION system. Based on the review of information in ViSION, the data were not
current, accurate, and complete as discussed in the findings in this report.

We gained an understanding of relevant control activities by examining applicable policies and
procedures as presented in the FDIC Rules and Regulations, FDIC’s Statement of Policy, DSC’s
Risk Management Manual of Examination Policies, FDIC’s Case Manager Procedures Manual,
Examination Documentation Modules, and Regional Directors Memoranda and by reviewing
available FFIEC and FDIC documentation related to TSP supervision and examination.

Regarding compliance with laws and regulations, we gained an understanding of aspects of the
Federal Deposit Insurance (FDI) Act and the requirements of the FDIC Rules and Regulations.
Also, we reviewed applicable sections of the BSCA. However, DSC documentation was not
sufficient for us to verify institution compliance with the BSCA notice requirements (as
discussed in this report). The scope of the audit did not encompass testing for fraud or illegal
acts; nevertheless, we were alert for, but did not detect such activity.

Regarding how banks manage their TSP relationships, we limited our work to gaining an
understanding of the information examiners obtain during bank examinations. Also, we did not
include offshore outsourcing of technology services in the scope of our audit. Future audit
coverage in this area will include detailed reviews of vendor management, TSP examinations,
offshore outsourcing, and supervisory efforts that address compliance with laws and regulations
pertaining to safeguarding sensitive customer information.




                                             15
                                                                                APPENDIX II



 LAWS, REGULATIONS, AND GUIDANCE PERTAINING TO DATA SECURITY AT
   FDIC-INSURED INSTITUTIONS AND RELATED PRIVACY REQUIREMENTS

Laws                             Provisions
12 United States Code (U.S.C.)   (A) General examination and regulatory authority. A service
1464(d)(7)                       company or subsidiary that is owned in whole or in part, by a
Home Owners’ Loan Act            savings association shall be subject to examination and
                                 regulation by the Director, OTS, to the same extent as that
                                 savings association.
                                 (B) Examination by other banking agencies. The Director
                                 may authorize any other federal banking agency that
                                 supervises any other owner of part of the service company or
                                 subsidiary to perform an examination described in
                                 subparagraph (A).
                                 (D) Services performed by contract or otherwise.
                                 Notwithstanding subparagraph (A), if a savings association,
                                 a subsidiary thereof, or any savings and loan affiliate or
                                 entity, as identified by Section 8(b)(9) of the FDI Act, that is
                                 regularly examined or subject to examination by the
                                 Director, causes to be performed for itself, by contract or
                                 otherwise, any service authorized under this chapter or
                                 applicable state law, whether on or off its premises, (i) such
                                 performance shall be subject to regulation and examination
                                 by the Director to the same extent as if such services were
                                 being performed by the savings association on its own
                                 premises; and (ii) the savings association shall notify the
                                 Director of the existence of the service relationship not later
                                 than 30 days after the date on which the contract is entered
                                 or the date on which performance is initiated.
12 U.S.C. 1867                   (a) Principal investor. A bank service company shall be
Bank Service Company Act         subject to examination and regulation by the appropriate
                                 federal banking agency of its principal investor to the same
                                 extent as its principal investor. The appropriate federal
                                 banking agency of the principal shareholder or principal
                                 member of such bank service company may authorize any
                                 other federal banking agency that supervises any other
                                 shareholder or member of the bank service company to make
                                 such an examination.
                                 (c) Services provided by contract or otherwise.
                                 Notwithstanding section (a) above, whenever a bank that is
                                 regularly examined by an appropriate Federal banking
                                 agency, or any subsidiary or affiliate of such a bank that is
                                 subject to examination by that agency, causes to be
                                 performed for itself, by contract or otherwise, any services



                                         16
                                                                                APPENDIX II



                                 authorized under this chapter, whether on or off its premises:
                                 (1) such performance shall be subject to regulation and
                                 examination by such agency to the same extent as if such
                                 services were being performed by the bank itself on its own
                                 premises, and (2) the bank shall notify such agency of the
                                 existence of the service relationship within 30 days after
                                 making such a service contract or the performance of the
                                 service, whichever occurs first.
15 U.S.C. 6801                   Protection of nonpublic personal information.
Gramm-Leach-Bliley Act           (a) Privacy obligation policy. It is the policy of the Congress
                                 that each financial institution has an affirmative and
                                 continuing obligation to respect the privacy of its customers
                                 and to protect the security and confidentiality of those
                                 customers’ nonpublic personal information.
                                 (b) Financial institutions’ safeguards. In furtherance of the
                                 policy in subsection (a) of this section, each agency or
                                 authority described in section 6805(a) of this title shall
                                 establish appropriate standards for financial institutions
                                 subject to their jurisdiction relating to administrative,
                                 technical, and physical safeguards: (1) to ensure the security
                                 and confidentiality of customer records and information;
                                 (2) to protect against any anticipated threats or hazards to the
                                 security or integrity of such records; and (3) to protect
                                 against unauthorized access to or use of such records or
                                 information which could result in substantial harm or
                                 inconvenience to any customer.
Regulations
12 Code of Federal Regulations   (a) Purpose. Part 332 governs the treatment of nonpublic
(C.F.R.) Part 332                personal information about consumers by the financial
Privacy of Consumer Financial    institutions listed in paragraph (b) of this section. This part:
Information                         (1) Requires a financial institution to provide notice to
                                 customers about its privacy policies and practices.
                                    (2) Describes the conditions under which a financial
                                 institution may disclose nonpublic personal information
                                 about consumers to nonaffiliated third parties.
                                    (3) Provides a method for consumers to prevent a
                                 financial institution from disclosing that information to most
                                 nonaffiliated third parties by “opting out” of that disclosure,
                                 subject to the exceptions in §§ 332.13, 332.14, and 332.15.
                                 (b) Scope. (1) Part 332 applies only to nonpublic personal
                                 information about individuals who obtain financial products
                                 or services primarily for personal, family, or household
                                 purposes. This part does not apply to information about
                                 companies or about individuals who obtain financial



                                         17
                                                                                 APPENDIX II



                                    products or services for business, commercial, or agricultural
                                    purposes. This part applies to the United States offices of
                                    entities for which the FDIC has primary supervisory
                                    authority.
Fair Credit Reporting Regulations   Interagency Proposed Rule implementing provisions of the
12 C.F.R. Part 334                  Fair Credit Reporting Act (FCRA) that permit institutions to
                                    communicate consumer information to their affiliates
                                    without incurring the obligations of consumer reporting
                                    agencies. The privacy rule does not modify, limit, or
                                    supersede the operation of FCRA.
12 C.F.R. Part 364, Standards for     (a) General standards. The Interagency Guidelines
Safety and Soundness,               Establishing Standards prescribed pursuant to section 39 of
Appendix B, Interagency             the FDI Act (12 U.S.C. 1831p--1), as set forth as
Guidelines Establishing             Appendix A to this part, apply to all insured state
Information Security Standards      nonmember banks and to state-licensed insured branches of
                                    foreign banks that are subject to the provisions of section 39
                                    of the FDI Act.
                                      (b) Interagency Guidelines Establishing Information
                                    Security Standards. These guidelines prescribed pursuant to
                                    section 39 of the Federal Deposit Insurance Act (12 U.S.C.
                                    1831p--1), and sections 501 and 505(b) of the Gramm-
                                    Leach-Bliley Act (15 U.S.C. 6801, 6805(b)), and with
                                    respect to the proper disposal of consumer information
                                    requirements pursuant to section 628 of the FCRA
                                    (15 U.S.C. 1681w), as set forth in Appendix B to this part,
                                    apply to all insured state nonmember banks, insured state
                                    licensed branches of foreign banks, and any subsidiaries of
                                    such entities (except brokers, dealers, persons providing
                                    insurance, investment companies, and investment advisers).
Guidance
FIL-89-2004, FFIEC Information      The FFIEC has issued booklets with guidance on evaluating
Technology Examination              management and outsourcing technology services. The FIL
Handbook                            states that “outsourcing of an activity does not relieve
                                    management and the board of directors of their responsibility
                                    to ensure the institution’s data are processed in a secure
                                    environment and to maintain data integrity.”
FIL-27-2004, Guidance on            The FDIC alerted financial institutions to the increasing
Safeguarding Customers Against      prevalence of e-mail and Internet-related fraudulent schemes
E-Mail and Internet-Related         targeting financial institution customers. The guidance
Fraudulent Schemes                  provides financial institutions with background information
                                    on these schemes and describes how institutions can assist in
                                    protecting their customers.




                                            18
                                                                                 APPENDIX II



Fair and Accurate Credit            The OCC, FDIC, and OTS are adopting a final rule to
Transactions (FACT) Act             implement section 216 of the FACT Act by amending the
Implementation                      Interagency Guidelines Establishing Standards for
                                    Safeguarding Customer Information. The final rule
                                    generally requires each financial institution to develop,
                                    implement, and maintain, as part of its existing information
                                    security program, appropriate measures to properly dispose
                                    of consumer information derived from consumer reports.
Interagency Guidelines              Guidelines establishing standards for safeguarding customer
Establishing Standards for          information were revised to reference the security guidelines,
Safeguarding Customer               implement Section 501(b) of GLBA, and require institutions
Information and Rescission of       to mandate appropriate security controls for contractual
Y2000 Standards for Safety and      service providers.
Soundness
66 Federal Register 8615
FIL-64-2005, Guidance on How       The FDIC issued guidance to financial institutions
Financial Institutions Can Protect describing the practice of “pharming,” how it occurs, and
Against Pharming Attacks           potential preventive approaches. Financial institutions
                                   offering Internet banking should assess potential threats
                                   posed by pharming attacks and protect Internet domain
                                   names, which – if compromised – can heighten risks to the
                                   institutions.
FIL-49-99, Bank Service            Section 7(c)(2) of the Bank Service Company Act states that
Company Act                        any FDIC-supervised institution that has services performed
                                   by a third-party “shall notify such agency of the existence of
                                   the service relationship within 30 days after the making of
                                   such service contract or the performance of the service,
                                   whichever occurs first.” As defined in Section 3 of the Act,
                                   these services include “check and deposit sorting and
                                   posting; computation and posting of interest and other credits
                                   and charges; preparation and mailing of checks, statements,
                                   notices, and similar items; or any other clerical,
                                   bookkeeping, accounting, statistical, or similar functions
                                   performed for a depository institution.”

FIL-50-2001, Bank Technology        The bulletin introduces three short documents containing
Bulletin: Technology                practical ideas for banks to consider when they engage in
Outsourcing Information             technology outsourcing. The documents are for
                                    informational purposes only and should not be considered
                                    examination procedures or official guidance.




                                            19
                                                                                               APPENDIX III


           SUMMARY OF FINANCIAL INSTITUTION AND TSP-RELATED
               DATA SECURITY BREACHES REPORTED IN 2005

                                                                                                 Number of
  Date Made
                           Institution Name                        Type of Breach                Consumers
    Public
                                                                                                  Affected
Feb. 15, 2005    ChoicePoint                             Bogus accounts established by             145,000
                                                         identity thieves
Feb. 25, 2005    Bank of America                         Lost backup tape                         1,200,000
Feb. 25, 2005    PayMaxx                                 Exposed online                            25,000
April 20, 2005 Ameritrade                                Lost backup tape                          200,000
April 28, 2005 Wachovia,                                 Dishonest insiders                        676,000
               Bank of America,
               PNC Financial Services Group, and
               Commerce Bancorp
May 16, 2005     Westborough Bank                        Dishonest insider                           750
June 6, 2005     CitiFinancial                           Lost backup tapes                        3,900,000
June 16, 2005    CardSystems Solutions, Inc.             Hacking                                 40,000,000
June 29, 2005    Bank of America                         Stolen laptop                             18,000
July 6, 2005     City National Bank                      Lost backup tapes                        Unknown
Aug. 30, 2005    J.P. Morgan                             Stolen laptop                            Unknown
Sept. 16, 2005   ChoicePoint                             ID thieves accessed; also misuse of        9,903
                 (2nd notice, see Feb. 15 for 145,000)   IDs and passwords.

Sept. 17, 2005   North Fork Bank, NY                     Stolen laptop with mortgage data           9,000
                 Bank of America                         Stolen laptop with information of      Not disclosed
Sept. 23, 2005
                                                         Visa Buxx users (debit cards)
Sept. 28, 2005   RBC Dain Rauscher                       Illegitimate access to customer data 100+ customers'
                                                         by former employee                       records
                                                                                              compromised out
                                                                                                of 300,000
Nov. 8, 2005     ChoicePoint                             Bogus accounts established by ID         17,000 in
                                                         thieves                               addition to those
                                                         Total affected now 172,000              noted earlier
                                                         (See Feb. 15 & Sept. 16)
Nov. 9, 2005     TransUnion                              Stolen computer                            3,623
Nov. 11, 2005    Scottrade Troy Group                    Hacking                                  Unknown
Dec. 1, 2005     Firstrust Bank                          Stolen laptop                             100,000
Source: Compiled by Privacy Rights Clearinghouse (www.privacyrights.org).




                                                   20
Appendix IV
     APPENDIX IV




22
     APPENDIX IV




23
     APPENDIX IV




24
     APPENDIX IV




25
     APPENDIX IV




26
     APPENDIX IV




27
     APPENDIX IV




28
                                                                                                                                               APPENDIX V


                                           MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the status of the recommendations as of the date of report
issuance.
                                                                                                                                                 Open
                                                                                                                                         a
 Rec.                                                                                  Expected              Monetary         Resolved:           or
Number               Corrective Action: Taken or Planned/Status                     Completion Date          Benefits         Yes or No         Closedb
              DSC will assess its options for improving the accuracy and
      1       completeness of the TSP inventory information and will vet             March 30, 2007             N/A               Yes            Open
              the issues with the other FFIEC agencies.
              DSC will review the IT Officer’s Questionnaire for
      2       appropriate inclusion of BSCA notification requirements.               March 30, 2007             N/A               Yes            Open
              DSC will propose to the appropriate FDIC committees that
      3       the FDIC develop a centralized collection system to add                March 30, 2007             N/A               Yes            Open
              BSCA notifications to the ViSION architecture.
              DSC will review the IT Officer’s Questionnaire and include
      4       a self-assessment item for BSCA notification requirements              March 30, 2007             N/A               Yes            Open
              where appropriate. Additionally, DSC will evaluate and
              consider additional risk-ranking measures for TSPs and will
              propose any relevant findings to the FFIEC IT
              Subcommittee for consideration. Also, DSC will review
              current TSP controls and consider the opportunity for
              further enhancement.
              Supplemental guidance has been issued by the FFIEC and
              the FDIC. DSC will raise the topic of including sensitive            September 30, 2006           N/A               Yes            Open
      5       customer information in the risk-ranking method to the
              FFIEC IT Subcommittee for discussion and consideration in
              the risk-based examination priority ranking program.
              DSC will raise the issue of TSP processing of sensitive
      6       customer information with the FFIEC IT Subcommittee for              September 30, 2006           N/A               Yes            Open
              interagency review and consideration.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                   as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.



                                                      29
